<html>
<title> - C O N T E N T S</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      DETERMINING ELIGIBILITY FOR
                 DISABILITY BENEFITS: CHALLENGES FACING
                   THE SOCIAL SECURITY ADMINISTRATION

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2017

                               __________

                          Serial No. 115-SS06

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-616                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania             BRIAN HIGGINS, New York
JIM RENACCI, Ohio                    TERRI SEWELL, Alabama
PAT MEEHAN, Pennsylvania             SUZAN DELBENE, Washington
KRISTI NOEM, South Dakota            JUDY CHU, California
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

TOM RICE, South Carolina             JOHN B. LARSON, Connecticut
DAVID SCHWEIKERT, Arizona            BILL PASCRELL, JR., New Jersey
VERN BUCHANAN, Florida               JOSEPH CROWLEY, New York
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio
JASON SMITH, Missouri


 
                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 6, 2017, announcing the hearing............     2

                               WITNESSES

Bea Disman, Acting Chief of Staff, Social Security Administration     6
Kathryn Larin, Director of Education, Workforce, and Income 
  Security Issues, Government Accountability Office..............    22
Elizabeth McLaren, Bureau Chief, Iowa Disability Determination 
  Services, on behalf of National Council of Disability 
  Determination Directors........................................    39
Marilyn Zahm, President, Association of Administrative Law Judges    50
Lisa Ekman, Director of Government Affairs, National Organization 
  of Social Security Claimants' Representatives, on behalf of the 
  Social Security Task Force Consortium for Citizens with 
  Disabilities...................................................    62

                        QUESTIONS FOR THE RECORD

Questions submitted by The Honorable Sam Johnson, Chairman, 
  Subcommittee on Social Security, Committee on Ways and Means, 
  to Kathryn Larin, Director of Education, Workforce, and Income 
  Security Issues, Government Accountability Office..............    97
Questions submitted by Amy Shuart, Staff Director, Subcommittee 
  on Social Security, Committee on Ways and Means, to Elizabeth 
  McLaren, President-Elect, National Council of Disability 
  Determination Directors........................................   100
Questions submitted by The Honorable Sam Johnson, Chairman, 
  Subcommittee on Social Security, Committee on Ways and Means, 
  to Bea Disman, Acting Chief of Staff, Social Security 
  Administration.................................................   103
Questions submitted by The Honorable Sam Johnson, Chairman, 
  Subcommittee on Social Security, Committee on Ways and Means, 
  to Marilyn Zahm, President, Association of Administrative Law 
  Judges.........................................................   118

                       SUBMISSIONS FOR THE RECORD

Peter J. Martinelli, U.S. Administrative Law Judge, Office of 
  Hearings and Appeals, Social Security Administration (SSA).....   119
National Association of Disability Examiners (NADE)..............   128
Philip B. Litteral, President, National Association of Disability 
  Representatives (NADR).........................................   138
Anthony M. Reardon, National President, National Treasury 
  Employees Union (NTEU).........................................   142

 
                      DETERMINING ELIGIBILITY FOR
                 DISABILITY BENEFITS: CHALLENGES FACING
                   THE SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2017

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2020, Rayburn House Office Building, Hon. Sam Johnson 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

                            ADVISORY

                FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
Wednesday, September 6, 2017
SS-06

                 Chairman Johnson Announces Hearing on

            Determining Eligibility for Disability Benefits:

                 Challenges Facing the Social Security

                             Administration

    House Ways and Means Social Security Subcommittee Chairman Sam 
Johnson (R-TX), announced today that the Subcommittee will hold a 
hearing entitled ``Determining Eligibility for Disability Benefits: 
Challenges Facing the Social Security Administration.'' The hearing 
will focus on the Social Security Administration's plan to reduce the 
hearing backlog and claimant wait times, other efforts to modernize and 
improve the disability determination process, and tools available to 
expedite decisions for those with certain severe conditions. The 
hearing will take place on Wednesday, September 6, 2017 in room 2020 of 
the Rayburn House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, September 20, 2017. For questions, or if you encounter 
technical problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.

    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 

    Chairman JOHNSON. Good morning to all of you, and welcome 
to today's hearing on the challenges Social Security faces when 
deciding if a person should receive disability benefits. Since 
I have been Chairman, we have held 18 hearings, including 
today, on the disability insurance program, on one topic or 
another. Now, that is a lot of hearings, but the disability 
insurance program is too important for Social Security not to 
get it right.
    Americans pay taxes on their hard-earned wages for the 
promise of future Social Security benefits when the worker 
retires, is unable to work due to a disability, or dies. These 
benefits are an important part of a family's financial 
security, and Americans rightfully expect that when they apply 
for benefits, if they are eligible, that they will receive them 
quickly. But for those applying for disability benefits, that 
isn't the case.
    Today, over 1 million people are waiting for a hearing with 
Social Security administrative law judges, and on the average 
these folks will wait around 600 days to get that hearing. That 
is nearly 2 years. And that is after waiting almost 4 months, 
on the average, for an initial decision, and more than 3 months 
for a second look, known as reconsideration.
    While not all of them will qualify for benefits, all of 
these people deserve an answer in a timely fashion. And for 
those who don't qualify for benefits, these long wait times 
make getting back to work even harder.
    With backlogs at record highs, it is more important than 
ever for Social Security to ensure that the Compassionate 
Allowances program is working as intended. The Compassionate 
Allowances program was created in 2008 as a way to help those 
with the most severe impairments jump to the front of the line. 
But as we will hear today, this program doesn't always work the 
way it should.
    It is clear Social Security has serious problems when it 
comes to making sure people get the disability decisions as 
quickly as possible. But Social Security problems and the 
disability insurance program are more than just long wait 
times. Since 2003, Social Security's disability programs have 
been on the GAO's high risk list, in large part because of 
outdated criteria to determine eligibility for disability 
benefits. While some progress has been made, there is more work 
to be done to modernize Social Security's disability program.
    As we know, more money isn't always the answer. This year, 
the Social Security Administration received $90 million in 
dedicated funding to address a disability backlog. Yet, wait 
times continue to grow. Social Security used some of this 
funding in much-needed information technology improvements that 
should pay dividends in the long run. The Social Security 
Administration must find ways to be more efficient and 
modernize the disability insurance program. And today, we are 
going to hear about how Social Security plans to do just that. 
This won't be easy work and there is plenty to do.
    Social Security needs more than just a plan to fix this; it 
needs real leadership, and that is a large part of management's 
problem. Since 2013, Social Security has had an Acting 
Commissioner. In February, Ranking Member Larson and I, along 
with our colleagues from the Human Resources Subcommittee, sent 
a letter to President Trump, asking that he nominate a 
Commissioner without delay.
    Social Security needs a Senate-confirmed Commissioner who 
can lead the agency and focus on providing the service 
Americans expect and deserve. Social Security provides 
important benefits that many Americans rely on. With the right 
leadership and a good plan, Social Security can get back on the 
right track, but until then, this Subcommittee will keep asking 
tough questions about how to get this done. The American people 
deserve nothing less.
    And I am sure that my compatriot next to me agrees with 
that. With that, I will recognize Mr. Larson.
    Mr. LARSON. Well, I thank our distinguished Chairman, and I 
certainly concur with that. And, most importantly, concur in 
saying your continued leadership to your country in every 
capacity is greatly respected. And I would say that we are in 
agreement on a number of the problems that Social Security is 
set with. As you know, Mr. Chairman, millions of Americans rely 
on Social Security for basic income when they retire, or if 
they are severely disabled or can no longer work. Social 
Security is also there to help widows and children who have 
lost a parent. There is no private plan on the market, simply 
put, that can compare to Social Security. That is just a fact.
    And we are living that fact currently. And the people at 
Social Security deserve a lot of credit. In the midst of 
Harvey, and what is going on and the devastation and the people 
of Texas in the greater Houston area, and with Irma bearing 
down upon Florida now, I think it is heartening to know that 
Social Security hasn't missed a payment. And that on the 
ground, Social Security has people working with the Red Cross 
and other volunteer agencies. And even in the case where people 
do not have electronic transfers, that they are there to help 
and make sure that America gets what is America's number one 
program, the Social Security program.
    Natural disasters remind us of how important it is to fight 
back against calls to cut Social Security, and instead, come 
together in a bipartisan way to make commonsense adjustments to 
strengthen Americans insurance plan and protect the benefits 
Americans have earned and rely on. Both the Chairman and I have 
offered comprehensive plans to address the long-term shortfall 
in the Social Security system so Americans can continue to 
count on these benefits, whether they become disabled or 
retired or they should die prematurely, leaving their young 
children behind.
    By offering--while differing in our approaches, I hope we 
will be able to have a hearing. I keep on plugging for a 
hearing in Plano, Texas, with our distinguished Chairman, but 
anywhere in the country where we will have an opportunity to 
let the Congress work its will. Let the vitality of ideas come 
forward. We both share the same goals, we just have a different 
path of getting there.
    But today's hearing is focused on a problem of record-high 
delays in processing disability applications. This is just 
simply unacceptable, and deplorable, at its very core, of what 
everyday average citizens in this country have to endure. As 
the Chairman pointed out, more than 600 days? It is 
unconscionable.
    Since 2010, the number of beneficiaries, though, has grown 
by 13 percent as baby boomers reach retirement age, and 
especially as we saw after the Great Recession, a number of 
people who lost jobs and are scrambling for their positions. 
Social Security operating budget in this same period of time 
has fallen by more than 10 percent, after accounting for 
inflation. This has made it difficult, if not impossible, for 
Social Security to serve our constituents promptly when they 
need help the most. And that is where I think that money does 
matter, and that money in these budgets, so that we can get the 
front-line people who can handle these.
    We have had many discussions about technology and there has 
been technological advances, but not on the grand scale that we 
need to address this, and nothing on a scale that will assist 
us in a way that that caseworker can--who can deal with an 
individual personally, like what these people are currently 
enduring and suffering through in Houston.
    There are delays throughout the Social Security 
Administration. Today's hearing is focused on the lengthy 
waits, and the Chairman went over this, the administrative law 
judge who can decide on disability benefits appeal. These 
hearings are important. And for the first time, an applicant 
can get to meet face to face with an examiner, in many 
instances, these hearings are the first time the Social 
Security administrator has an applicant's complete medical 
evidence in hand, and the applicant can seek help from an 
attorney or a professional, which is important, given how 
complex the law is in this area.
    But so far this year, the wait, as the Chairman 
underscored, is 600 days. I have several constituents in my 
district, and I am so glad that Ms. Ekman is here today, and we 
are going to get to hear from her. But when you find that 
people are committing suicide; when you find that, in many 
cases, they lose their homes; when you look at what happens to 
them mentally, and I am talking about people that have served 
in our armed services who have post-traumatic stress, who then 
find that their greatest post traumatic stress becomes dealing 
with the Social Security system that is there to help them.
    And so, it is unconscionable that this goes on, and we have 
to solve this problem on behalf of the citizens we are sworn to 
serve, by correcting and making sure that America's primary 
insurance program for its citizens is there to provide them 
relief on a timely basis. I say ``insurance program'' because 
that is what it is. Citizens have contributed to this program. 
They deserve the best, as the Chairman underscored in his 
remarks, from this Committee. I am looking forward to the 
testimony today. Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you. As is customary, any Member is 
welcome to submit a statement for the hearing record. And 
before we move on to our testimony today, I want to remind our 
witnesses to please limit your oral statements to 5 minutes. 
However, without objection, all of the written testimony will 
be made part of the hearing record. We have 5 witnesses today, 
and seated at the table are: Bea Disman, Acting Chief of Staff, 
Social Security Administration; Kathryn Larin, Director of 
Education, Workforce, and Income Security Issues, Government 
Accountability Office; Elizabeth McLaren, Bureau Chief, Iowa 
Disability Determination Services, on behalf of the National 
Council of Disability Determination Directors; Marilyn Zahm, 
President, Association of Administrative Law Judges; and Lisa 
Ekman, Director of Government Affairs, National Organization of 
Social Security Claimants' Representatives, on behalf of the 
Social Security Task Force Consortium for Citizens with 
Disabilities.
    Ms. Disman, welcome. Thank you for being here, and please 
proceed.

STATEMENT OF BEA DISMAN, ACTING CHIEF OF STAFF, SOCIAL SECURITY 
                         ADMINISTRATION

    Ms. DISMAN. Thank you, Chairman. Chairman Johnson and 
Ranking Member Larson, and Members of the Subcommittee, I am 
Bea Disman, Acting Chief of Staff for the Social Security 
Administration. Before I begin, on behalf of the Social 
Security----
    Mr. LARSON. Is your mic on, ma'am?
    Ms. DISMAN. Yes. Before I begin, on behalf of the Social 
Security Administration, our thoughts are with those affected 
by the devastation in Texas and parts of Louisiana by Hurricane 
Harvey. We know Chairman Brady's district in Houston is 
especially affected by the storm, and that districts across 
Texas, like Chairman Johnson's, are providing disaster relief 
services.
    Even though some of our field offices were closed, as Mr. 
Larson said, we were on-site with FEMA over the weekend at 
three sites in Texas, and two in Louisiana, where Social 
Security and Supplemental Security Income beneficiaries could 
request immediate payment in person if they did not receive 
their regular payment. We will continue to be on-site in three 
locations in Texas this whole week. And all but two of our 
field offices in Texas have opened again.
    Thank you for inviting me to discuss how we are taking a 
systematic approach to modernize our disability policies and 
processes. We appreciate the Subcommittee for its ongoing 
oversight of the disability programs and your recommendations. 
With over 50 years of experience at Social Security, I can 
assure you that we are committed to serving the public 
effectively and compassionately, and to preserving the 
integrity of the Social Security programs. We are mission-
focused, mission-driven, in developing disability policy and 
processes.
    The Social Security Act defines disability as the inability 
to engage in any substantial gainful activity due to a 
medically determinable physical or mental impairment that is 
expected to last at least 1 year or result in death. While this 
definition provides the statutory foundation of our Social 
Security disability insurance, and SSI income processes, our 
management of the program is also informed by both technology 
and policy advances.
    Changes in healthcare delivery require us to rethink our 
use of medical source information and its supportability and 
consistency. With that in mind, the policy updates and 
revisions we have recently made establish the foundation for an 
integrated systematic approach to disability decisionmaking. 
For example, we have revised most of our listings of impairment 
criteria. After we finish the updates in fiscal year 2018, we 
will then update the listings on a flow basis using a 3- to 5-
year update cycle. We have the expertise in place to meet this 
objective. We are developing an occupational information system 
that will be the primary source of occupational information 
used in disability adjudication.
    We are committed to providing accurate, high-quality policy 
research in support of this initiative. And we have been 
working with the Bureau of Labor Statistics, which has been 
collecting data for us since 2015. We plan to implement this 
occupational information system in 2020, with the introduction 
of a vocational income tool that adjudicators will use to 
decide claims.
    In January 2016, we developed our plan to improve hearing 
workloads and service delivery. We updated this plan in August 
of 2017 to meet our changing needs. We greatly appreciate the 
$90 million anomaly funding that Congress has provided. The 
plan will permit us to enhance our business efficiencies, such 
as expanding our prehearing conferences. It will also allow us 
to increase our adjudicator capacity by hiring additional ALJs, 
decision writers, and other support staff. The plan also 
supports technological investments in our hearings process, 
such as using natural language processing to improve the 
quality of our decisions.
    The quality of our decisions has always been a paramount 
concern to us. To this end, we are establishing the Office of 
Analytics, Review, and Oversight, which will improve 
coordination on the oversight of the disability adjudication 
process. This new office centralizes all agency offices that 
analyze data in our disability programs and conduct quality 
reviews of our DDS and hearings process.
    We appreciate GAO's work in assessing our Compassionate 
Allowances, or CAL program. CAL delivers faster services by 
making policy compliant benefit decisions quickly to eligible 
individuals with the most serious disabilities. We are working 
to incorporate their recommendation to strengthen the CAL 
program. For example, we have updated our CAL website to be 
more transparent, and to include useful information for 
advocates to submit CAL conditions.
    CAL will be the focus of our November National Disability 
Forum. We are looking forward to holding our outreach meetings 
again, with an eye to improving how we communicate about our 
CAL policies and updates. We are enhancing our internal 
processes as well as developing and updating CAL conditions, 
including the development of enhancements that would give us 
more flexibility to the program.
    Thank you for your interest in discussing disability with 
us. SSA disability programs serve the most vulnerable segments 
of our society. Moving forward, we are and will continue to be 
mission-driven, mission-focused, as we serve the millions of 
individuals who need our help. We look forward to continuing to 
work with you and the Subcommittee.
    [The prepared statement of Ms. Disman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman JOHNSON. Thank you, ma'am. Ms. Larin, you are 
recognized.

 STATEMENT OF KATHRYN LARIN, DIRECTOR OF EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. LARIN. Chairman Johnson, Ranking Member Larson, and 
Members of the Committee, I am pleased to be here today to 
discuss GAO's report on the Social Security Administration's 
Compassionate Allowance initiative. This initiative, known as 
CAL, expedites the processing of disability claims for those 
with certain conditions, a process that could otherwise take 
months. While CAL has been effective in fast-tracking 
eligibility determinations for some applicants, questions have 
been raised about how the initiative has been implemented. 
Specifically, my remarks today will focus on three issues: how 
SSA identifies conditions for inclusion on the CAL list; how 
claims are designated for expedited processing under CAL; and 
how SSA ensures the accuracy and consistency of CAL decisions.
    First, on identifying conditions for inclusion on the CAL 
list. We found that SSA lacks a formal and systematic approach 
for identifying CAL conditions. Since the CAL initiative began 
in 2008, the number of conditions included has grown from 50 to 
228. Some conditions were added to the original list following 
a series of public hearings. But since 2011, SSA has relied 
primarily on advocates for certain diseases and disorders to 
bring conditions to its attention.
    However, SSA has not provided guidance on its web page on 
how to make suggestions. It has not consistently communicated 
with those who suggested additions about the status of their 
recommendations. And has not conducted outreach efforts to help 
ensure that all advocates are aware of the initiative.
    Relatedly, SSA does not have clear or consistent criteria 
that it uses to determine whether to designate a condition as 
CAL. As a result, SSA may be overlooking conditions that may be 
appropriate for inclusion.
    Turning now to how claims are designated as CAL. We found 
that SSA's procedures do not ensure that all claims are 
accurately identified for CAL processing. SSA relies primarily 
on selection software that uses a word search of the impairment 
description to determine whether the claim refers to a CAL 
condition. But when the text provided by claimants is 
ambiguous, incomplete, or inaccurate, the software won't catch 
the condition as a CAL condition.
    For example, we found that the software accurately flagged 
stage 4 lung cancer as advanced staged lung cancer, a CAL 
condition, but it did not flag a claim where the claimant 
described their condition as lung cancer terminal. Disability 
examiners have the opportunity to ensure that claims are 
correctly designated as CAL, even when the software makes 
errors, by manually changing a flag. But we found that staff 
vary in when or whether they add or remove CAL status from 
disability claims.
    SSA does not have clear guidance on when to change CAL 
designations. And we found that some examiners didn't 
understand the importance of making such changes. For example, 
we found that in 2016, over half of all disability offices did 
not manually add more than a single CAL designation to a claim.
    Finally, on the accuracy and consistency of CAL decisions. 
We found that SSA uses detailed condition descriptions known as 
impairment summaries as a key tool to ensure accurate claims 
decisions. However, these summaries are not regularly updated. 
We found that a third of CAL impairment summaries are more than 
5 years old. Even though medical experts we consulted suggested 
that given advances in medical research, summaries should be 
updated every 1 to 3 years.
    In addition, while SSA collects data on things like denial 
rates for specific conditions and claims processing times, they 
don't leverage this data to inform improvements in the accuracy 
and consistency of CAL claims decisions.
    In conclusion, CAL is viewed positively by SSA and many 
stakeholders, and appears to be effectively expediting the 
processing of disability claims with this designation. However, 
weaknesses in CAL have led to unintended consequences. Absent 
improvements in how they identify CAL conditions, designate CAL 
claims, and ensure the accuracy and consistency of CAL 
decisions, SSA is missing an opportunity to make needed 
improvements to this important initiative.
    This concludes my prepared statement. I am happy to answer 
any questions you may have.
    [The prepared statement of Ms. Larin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman JOHNSON. Thank you very much. Ms. McLaren, 
welcome. Thank you for being here. You may proceed.

         STATEMENT OF ELIZABETH MCLAREN, BUREAU CHIEF, 
 IOWA DISABILITY DETERMINATION SERVICES, ON BEHALF OF NATIONAL 
         COUNCIL OF DISABILITY DETERMINATION DIRECTORS

    Ms. MCLAREN. Chairman Johnson, Ranking Member Larson, and 
Members of the Subcommittee, thank you for this opportunity to 
testify on behalf of members of the National Council of 
Disability Determination Directors, or NCDDD, and the State 
administrators of the Disability Determination Services, or 
DDS, across the Nation.
    Currently, we direct the work of over 16,000 employees, 
processing nearly 4.7 million disability cases a year. Today, I 
am here to provide you with the on-the-ground perspectives of 
the DDS community regarding the disability process. NCDDD 
recommends consistent policy application across the Nation. 
Therefore, we support the reinstatement of the reconsideration 
step, or the first appeal of the initial DDS denial to all 
States.
    Introduced in 1999 in 10 States, the prototype pilot 
removes the reconsideration appeal level in State DDS's. In 
these 10 States, the first level of appeal is a hearing with an 
administrative law judge at the Office of Disability 
Adjudication and Review. The President's 2018 budget request 
includes a proposal to reinstate reconsideration in those 10 
States. We believe the reinstatement would help alleviate the 
ODAR backlog.
    Initially, this change would give those State citizens the 
same opportunity to get benefits sooner at less cost. NCDDD has 
previously supported this recommendation during testimony to 
this Committee in 2012. Then and today, we make this 
recommendation with the caveat that sufficient funding and 
additional resources must be included for DDS operations, 
chiefly related to staffing, funding, and infrastructure.
    NCDDD is in favor of continuing refinement of the 
Compassionate Allowance, or CAL initiative, and the associated 
fast-track processes. In fiscal year 2016, the DDS has 
processed over 16,000 CAL-only cases, and nearly 62,000 CAL- 
and QDD-designated cases. While these numbers represent a small 
percentage of the millions of initial claims the DDS's will 
process in a year, NCDDD believes in the CAL process, and we 
believe it should continue to be supported, but with some 
improvement.
    DDS's find that CAL is useful in identifying impairments 
and prioritizing cases that have a high potential for favorable 
determination. However, SSA's software has room for 
improvement, as it sometimes misidentifies cases as CAL, and at 
other times, fails to identify a CAL condition. We suggest 
refinements to the software to correct this issue.
    We also propose that SSA continuously update both the 
condition list and the impairment summaries for CAL. NCDDD is 
concerned about eliminating the use of the disability examiner 
authority for QDD in CAL cases at the end of fiscal year 2018, 
as required by the bipartisan Budget Act of 2015. This 
authority currently allows a disability examiner to make fully 
favorable determinations in certain QDD or CAL cases without 
the approval of a medical consultant.
    The DDS's give this authority to well-trained, seasoned 
adjudicators who can work independently without medical 
consultation. We believe the loss of this disability examiner 
authority will have detrimental impact on DDS operations and 
our service to those applicants who are most in need.
    NCDDD supports and recommends the development of a new 
occupational information system to replace the outdated 
Dictionary of Occupational Titles, or DOT, and its companion 
volumes. In a large percentage of cases, disability 
determinations require assessment of an applicant's ability to 
perform their tasked work.
    The 1991 edition of the DOT is a tool provided to the DDS's 
by SSA. This aged resource is a foundational piece of the 
disability determination process. We understand that SSA has 
been working with the Bureau of Labor Statistics on a solution, 
but the completion date is still years away. The lengthy 
timeline for this change is discouraging to the DDS community, 
as we now have to work through complex issues with outdated 
information and antiquated systems that are not aligned with 
the framework of determining disability. We advocate for haste 
in the development of a new tool.
    In conclusion, NCDDD advocates that we retain and/or 
implement tools and policies that enable the DDS's to continue 
to provide compassionate service to the public with timely, 
cost effective, high-quality disability determinations.
    On behalf of the NCDDD, thank you again for an opportunity 
to testify. I would like to thank our SSA partners for their 
collaboration, and commend the DDS staff across the Nation for 
their exemplary work for the American public. I would be glad 
to answer any questions you have.
    [The prepared statement of Ms. McLaren follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
    Chairman JOHNSON. Thank you. Ms. Zahm, welcome. Thanks for 
being here. You may proceed.

             STATEMENT OF MARILYN ZAHM, PRESIDENT, 
            ASSOCIATION OF ADMINISTRATIVE LAW JUDGES

    Judge ZAHM. Thank you. Chairman Johnson, Ranking Member 
Larson and Members of the Subcommittee, thank you for this 
opportunity to address you who have the stewardship of this 
program in your hands. I am Marilyn Zahm, a United States 
Administrative Law Judge for 23 years and elected President of 
the Association of Administrative Law Judges.
    The AALJ represents 1400 Federal administrative law judges 
located in 166 hearing offices across the country. I am 
speaking today on behalf of my judicial colleagues.
    SSA judges have been doing triage work in hearing rooms 
across the country without adequate time, resources, or staff. 
We urge Congress to draft legislation to revitalize the 
adjudicatory system. Each of you has heard stories from your 
constituents, just as we judges hear stories in our courtrooms, 
of the hardship that waiting 2 years for a hearing and decision 
takes on those who appear before us.
    However, there are some practical solutions to the problems 
that we face in the adjudicatory system. I will focus on four 
issues and our solutions: adopt an AALJ's recommended efficient 
adjudication procedures; protect and preserve the independent 
judiciary; provide judges with adequate support staff; and 
provide judges sufficient time to perform their work. I will 
briefly discuss each of these.
    Since 2011, the agency has imposed an estimated 1,000 
changes to its policies and procedures manual, most of which 
are unnecessary, and simply add to the time it takes to hear 
and decide cases. We have proposed a number of solutions to 
make the adjudicatory process more efficient and more 
effective. Streamlined fully favorable templates, which, if 
implemented, could save half a million work hours per year. An 
expedited dismissal process that has the potential to conserve 
400,000 hours annually. Rules of procedure for those who appear 
before us: properly drafted regulations; elimination of the 10 
regional offices for ODAR; and redeployment of their 400 staff 
to the hearings operation.
    The American people are entitled to an impartial 
decisionmaker. The agency, however, continues to push an 
initiative that would disable all statutory protections to 
ensure that Federal agencies cannot improperly influence their 
adjudicators. It seeks to use in-house attorneys over whom it 
exercises control, instead of independent judges to hear and 
decide cases.
    This is not a new initiative. The agency proposed this last 
year, but under pressure from Congress, backed away from the 
proposal. Nevertheless, the agency has again announced this 
plan. There should be a chart appearing on your TV screens, 
which highlights the differences between ALJs and the agencies 
attorney examiners. As you can see, ALJs have decisional 
independence; in-house attorneys do not. They are controlled by 
the agency. If you control the people who make the decisions, 
you can control their decisions.
    The agency's probationary period proposal for newly hired 
ALJs with its argument for a judicial performance plan is also 
a well-worn attempt to eliminate statutory protections for the 
American people. This idea should be unequivocally rejected. We 
Americans deserve an independent judiciary.
    Judges are hamstrung without adequate support staff. Hiring 
freezes and attrition have eroded our clerical and attorney 
writing staffs. In many hearing offices, agency management has 
stripped judges of their assigned clerical support. In order to 
be efficient, judges need to work with the same staff. Each 
judge needs to have one clerical staff member and two attorneys 
assigned to us to work directly with us.
    Each disability case involves a person who is likely to 
desperately need income. Each claim paid has an approximate 
value of $300,000. Judges need to carefully and thoroughly 
evaluate each case, and we need sufficient time to do this job. 
The agency's quota, demanding judges dispose of 500 to 700 
cases annually, was created by dividing the number of pending 
cases by the number of judges several years ago. This means 
that judges have an average of 2.5 hours to fully adjudicate a 
case. That means reviewing the entire file of hundreds of 
medical documents, sometimes thousands; holding a hearing at 
which the claimant and expert witnesses are questioned; 
drafting instructions for a decision and editing that decision; 
2\1/2\ hours.
    Judges who take the time to follow the rules, regulations, 
and policies----
    Chairman JOHNSON. Can you finish pretty quickly because 
your time is up.
    Judge ZAHM. Oh, I am sorry. Thank you for your attention.
    [The prepared statement of Judge Zahm follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Thank you. Thank you. You know, it is 
hard to quiz a judge. Ms. Ekman, you are recognized.

   STATEMENT OF LISA EKMAN, DIRECTOR OF GOVERNMENT AFFAIRS, 
      NATIONAL ORGANIZATION OF SOCIAL SECURITY CLAIMANTS' 
 REPRESENTATIVES, ON BEHALF OF THE SOCIAL SECURITY TASK FORCE 
           CONSORTIUM FOR CITIZENS WITH DISABILITIES

    Ms. EKMAN. Good morning, Chairman Johnson, Ranking Member 
Larson, Members of the Subcommittee. Thank you for the 
opportunity to testify at this hearing. My name is Lisa Ekman, 
and I am the Director of Government Affairs for the National 
Organization of Social Security Claimants' Representatives, or 
NOSSCR.
    I am testifying today on behalf of the co-chairs of the 
Social Security task force of the Consortium for Citizens with 
Disabilities, or CCD. The Social Security disability programs 
provide the modest but vital benefits to millions of people 
with disabilities so severe they are unable to perform 
substantial work, many of whom would live in abject poverty or 
be homeless without them.
    Unfortunately, it took an average of 628 days for people 
who received an eligibility determination from an ALJ during 
the month of July to get access to these vital benefits. That 
wait time, which is far too long, is due, in large part, to 
chronic underfunding of the Social Security Administration's 
administrative budget since 2010. Prior to 2010, Congress 
invested resources in SSA, and SSA had been bringing the wait 
time down. SSA has shown what it can do when it is given 
adequate resources.
    Having to wait that long for a hearing can have devastating 
consequences for an individual and his or her family. Some 
people lose their homes, some declare bankruptcy and some even 
die. Here is one such story. Ms. S was a resident of McKinney, 
Texas, Mr. Chairman. She led a comfortable life, a middle-class 
life while working as a property manager and inspector. 
However, she developed a number of conditions, including 
chronic pain syndrome, fibromyalgia, cervical spondylosis, 
thoracic and lumbar spine pain, migraine headaches, 
intracranial hypotension, and fibromuscular dysplasia. This was 
followed by ever-increasing depression and anxiety, especially 
after she could no longer work.
    She tried every treatment doctors offered to reduce her 
pain and allow her to continue working, but by 2009, she just 
could not work anymore. She waited a long time for her hearing, 
which was finally scheduled in January of 2016, but she faced a 
terrible choice: miss an appointment for a test that might 
identify treatment to alleviate her pain that took months to 
schedule or postpone her hearing.
    The hearing was postponed and rescheduled for April 2016, 
but unfortunately, Ms. S committed suicide several weeks before 
her hearing. She was 45 years old. She received a posthumous 
fully favorable decision, and her 15-year-old son now receives 
survivor's benefits.
    My written testimony contains many other stories from--
collected from claimants' representatives from all over the 
United States which highlight the hardship and debt pain 
inflicted on individuals with disabilities when they are forced 
to wait months, or even years, for a hearing on their claim. 
And these heartbreaking stories are, unfortunately, becoming 
more commonplace.
    During fiscal year 2016, 8700 people died waiting for a 
hearing for an ALJ. That is nearly one every hour. The hearing 
backlog must be addressed. The Social Security task force 
respectfully recommends the following actions for Congress and 
SSA to consider:
    Congress should provide SSA with adequate funding to 
administer the Social Security Old Age Survivors and Disability 
programs. Only sustained, adequate funding, will allow SSA to 
reduce the time it takes to get a disability determination from 
an ALJ without negatively impacting customer service in its 
other core functions.
    The task force appreciates the backlog reduction efforts 
that SSA is making within the inadequate budget it receives. 
And the CARES Plan obtained some promising initiatives, but 
more should be done to assist the nearly 1.1 million people 
facing this daunting wait.
    SSA should work to ensure that a hearing is only held when 
necessary. And so first, SSA should do a better job of 
collecting full medical evidence at the initial application and 
reconsideration levels to ensure the decision is made on as 
complete and evidentiary record as possible.
    Second, SSA should resume a robust program of reviewing 
claims for on-the-record decisions, cases where recent evidence 
clearly shows eligibility without requiring a hearing. I 
understand that this is part of the CARES Plan, but the 
attorneys who would conduct these reviews are not doing them 
because they have been pulled into addressing another horrible 
backlog, and that is, the writing of decisions after a hearing 
is held. This is yet another example of the consequences of 
inadequate funding and trying to shift things around to make it 
work within the budget that they have.
    Third, Congress can assist to get the decision right the 
first time by facilitating reviews of more DDS denials, to 
ensure that these decisions are correct and prevent the need 
for an appeal. SSA should be permitted to use its dedicated 
program integrity funds to conduct these reviews, and they 
should increase the number of reviews.
    Finally, SSA should consider revising some recently or 
finalized regulations the task force believes will harm 
applicants who are otherwise eligible for benefits and leads to 
increased appeals, including the Federal court.
    One controversial rule regards the evaluation of medical 
evidence. The relationship between a person and their treating 
provider is unique, and opinions of treating providers deserve 
more weight than the opinion of someone who examines an 
individual once or reviews the claims file. The elimination of 
the treating physician rule is likely to lead to more appeals, 
more remands, and more delays as a result.
    Thank you again for the opportunity to testify today, and I 
am happy to answer any questions you might have.
    [The prepared statement of Ms. Ekman follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. I thank all of you. As is customary, for 
each round of questions, I will limit my time to 5 minutes, and 
ask my colleagues to also limit their questioning time to 5 
minutes as well.
    Ms. Disman, as I said in my opening remarks, waiting almost 
2 years to get a hearing decision is too long. Today, you have 
shown us Social Security's plan to get people hearings on time. 
But under that plan, people still aren't going to get a timely 
decision until at least 2022. Why is this plan taking so long?
    Ms. DISMAN. Thank you.
    Chairman JOHNSON. Turn your mic on.
    Ms. DISMAN. Thank you, Mr. Chairman. Let me first say, in 
being with the Social Security Administration for over 50 
years, and starting as an interviewer of disability 
applications, I share the concern, as do my colleagues, with 
the long wait for hearings as well as other issues that have 
been identified by the witnesses here. To listen and read the 
stories that were presented about people being deceased before 
a hearing took place is unacceptable to all of us.
    However, we have to put everything on the table when we 
look at the hearings process. We have to look at all aspects of 
it. It is not just the hiring of human resources, it is being 
strategic; otherwise, you will have what happened before. We 
had an aggressive plan before. We reduced the hearings backlog. 
What happened was, baby boomers came of age, and they became 
disability-prone; the recession hit; the increased receipts of 
applicants were upon us. And, basically, we had not updated our 
business processes, or had the IT technology to really 
modernize where we are going.
    So why does the plan take so long? We have to look at all 
aspects of it, in addition to making sure that we have 
sufficient staffing. I am pleased to say that this year, we are 
hiring 130 ALJs in addition to the 200-and-some-odd that we 
hired last year. We are also hiring over 600 support staff. 
Unfortunately, we hired more ALJs and didn't have the 
comparable support staff, because the agency had a self-imposed 
freeze. So we were able to hire one aspect, but it makes sense 
if you are hiring more judges, you need the decision writers, 
and you need the support staff to work with them.
    So our commitment is to bring over 600 on before the end of 
the year, and that is with the help of the anomaly money. So it 
does take a long time to deal with systemic problems, but I 
want to assure you, for the Acting Commissioner and myself, all 
options are on the table. We are looking at all 
recommendations. As a matter of fact, Judge Zahm and I have met 
a couple of times, and I have actually looked at the 45 
recommendations that she has made. One of them, which is a 
short form or template for the fully favorable, is something 
that the agency is looking at right now to move forward and to 
get agreement on a direction.
    So, we ask you to work with us. Your Committee has come up 
with great ideas, and we appreciate your support for Social 
Security all these years.
    Chairman JOHNSON. You have been working with us, and we 
have been working with you for the whole time I have been in 
the Congress, and I haven't seen much improvement. It wasn't 
that long ago that Social Security was facing a different 
disability backlog, and telling our Subcommittee how that 
backlog was going to be tackled. Yet, less than 10 years later, 
here we are again with another disability backlog, and I don't 
know that your new plan is going to stop that cycle.
    How can you assure us that in 10 years, we are not still 
talking about another disability backlog?
    Ms. DISMAN. Well, my hope, Mr. Chairman, is that being 
strategic and looking at all aspects of the backlog will enable 
us to minimize the cycle. Now, we can't help what happens 
externally, whether there is another recession and more 
filings, or whether you have the issue--for example, there was 
a period of time where we couldn't hire administrative law 
judges because of the Office of Personnel Management, and 
thankfully, Congress helped us correct that situation.
    But if we don't have a plan that is strategic and deals 
with the core of our problems, just giving us the budget won't 
stem the cycle that you have just referenced. For example, when 
I looked at the actuary projections of receipts for disability, 
they are going down now. Well, that is good news for us because 
that allows us to work on the backlog. By the way, the cases 
are averaging over 600 days, because we are working on the most 
aged cases now, and that means the processing time goes up.
    But having said that, and working on the cycle that we are 
doing, we need to make sure we have fixes that prevent or 
minimize these swings in the workloads. And that is where we 
are all working very hard together.
    Chairman JOHNSON. Thank you, ma'am. Mr. Larson, you are 
recognized.
    Mr. LARSON. Well, I share the Chairman's concern, and 600 
days is just flat out unacceptable. And we are the United 
States of America, these are our fellow citizens, this is a 
program that they have paid for. So I have heard a lot of 
discussion today, so what I am going to ask everybody is, you 
know--we cite the figure that there has been a 13 percent 
increase of baby boomers coming through the thing, but a 10 
percent decrease.
    If you have a 10 percent increase, could you turn this 
around? And what would that timeframe then be?
    Ms. DISMAN. I would have to look at the particular 
statistics.
    Mr. LARSON. Okay. That is not an answer.
    Ms. DISMAN. But I want to give you an answer: Let me just 
say, for every $100 million that is given in our budget--first 
of all, we want the President's budget because the President's 
budget commits a plan for us to balance the workload. But for 
every extra $100 million, I will give you two examples: We can 
do another 100,000 of disability applications, or another 
50,000 of hearing decisions. So I will take your question 
back----
    Mr. LARSON. Why does that take so long, Ms. Larin? You have 
said there is a number of recommendations that don't seem to be 
followed. What would you say in this case? Would the additional 
money help or not help?
    Ms. LARIN. I think where GAO's work--what GAO's work speaks 
to is, is SSA using the resources that they currently have as 
efficiently and effectively as they can?
    Mr. LARSON. Are they?
    Ms. LARIN. We found several instances where we don't 
believe that they are. Where they could be more effective and 
more efficient.
    Mr. LARSON. So in a case where they are not, what is--what 
can the government then do? What does GAO then recommend?
    Ms. LARIN. Well, we have several recommendations on how 
they can better use the information that they have, the 
administrative data that they are collecting, to inform how 
they can make quicker decisions, more accurate decisions, and 
more consistent decisions.
    Mr. LARSON. Will that result in a savings of money and time 
and effort?
    Ms. LARIN. Well, it certainly would save in the time and 
effort if they were more efficient and more effective in making 
their decision.
    Mr. LARSON. Ms. McLaren, what would you say about 
additional resources, you very definitely indicated that in 
your remarks?
    Ms. MCLAREN. Certainly. You know, the DDSs are always in 
need of more resources as well. You know, the work we do in the 
DDSs is similar to what they face in the ALJ courts. The 
disability examiners are stretched thin because we have a 
hiring issue as well there. If we had more adequate resources 
to take the time that is necessary to perform the reviews, 
there might be an impact. And we also, back to the statements 
that----
    Mr. LARSON. That is a very troubling thing. We say, and my 
colleagues over here will say, look, more money isn't the 
answer. We just say to you, look, we recognize that you are 
down, if we give you more money and--you can't give us an 
answer. And so it is very disturbing to people that want to 
help and see the citizens get help. We hear Ms. Ekman talking 
about--putting a real face on this, and then we go round and 
round and round without the ability seemingly to help. Judge, 
you----
    Judge ZAHM. Give me a clerk and two attorneys. Give my 
judges a clerk and two attorneys and we can go to town. We will 
be able to turn out a lot more decisions. And----
    Mr. LARSON. What does that mean, ``a lot more decisions''? 
We have a 600, you know, this backlog. What does that exactly 
mean?
    Judge ZAHM. I would say that judges, if given proper 
staffing, could probably add another 50 to 100 hearings per 
judge, and we have 1600 judges, per year, if you gave us 
staffing, and if you change the procedures that are roadblocks.
    Mr. LARSON. If we change the procedures, what is the 
number? Do you reduce it or do we just add more judges, more 
staff, more----
    Judge ZAHM. No, no, no. We definitely can reduce the 
backlog.
    Mr. LARSON. To what?
    Judge ZAHM. Give me a minute and let me figure it out.
    Mr. LARSON. Ms. Ekman, explain again what people are 
actually going through and how incompetent, in the face of 
that, we all seem.
    Ms. EKMAN. Thank you, Mr. Larson. People are losing their 
homes, they are dying, and they are becoming bankrupt while 
they wait for a decision. I think, Mr. Larson, when you 
chronically underfund an agency, you can't expect a small 
increase in funding in the short term to fix those problems. 
You need adequate funding sustained over a long period in order 
for SSA to get itself out of the hole that Congress has dug for 
them by giving them inadequate resources.
    You can't fix your problems by shifting money from one 
place to another without expecting all of the service that SSA 
provides to America to suffer. And, unfortunately, it is going 
to take a number of years even if you were to give 
significantly increased funding for SSA to be able to dig 
itself out of the hole they have been put in by inadequate 
funding over the last 7 years.
    Mr. LARSON. Well, it sounds like they could also make some 
changes that are being recommended by the GAO as well. I would 
be interested in finding out why it is that GAO can't get 
together with your group and come up with a comprehensive 
solution to this, that Congress can get its hands around, 
instead of these endless tastes-great/less-filling debates that 
we seem to have and nothing gets done.
    Chairman JOHNSON. I appreciate your questions. I appreciate 
your questions, and I totally agree with what the Ranking 
Member said. I hope you all are listening to his questions. And 
some of the answers that we are getting are, you know, 
nebulous, fruitless, something. Mr. Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman. I am looking at this 
chart of disability by wait times. It starts in 1986 and goes 
to 2016, 30 years, and the trend doesn't look very favorable. 
It is apparent that it is not a new problem. This is something 
that has been evolving over 30 years. But I also see that there 
are peaks and then there are valleys. And what I want to know 
is, what is the trend? Is this getting better or is it worse? 
Ms. Disman.
    Ms. DISMAN. The trend is getting better. Over the last 7 
months, we have reduced the pending. We are working on the aged 
cases. We have a number of initiatives that we started, but 
unfortunately, because of the decision writing backlog we had 
to stop. But with the hiring that we are going to do, there is 
some incredibly promising initiatives. We have to deal with----
    Mr. RICE. Okay. Thank you. I want to ask, what is the 
trend, in your opinion, Ms. Larin?
    Ms. LARIN. Federal disability programs have been on GAO's 
high risk list for many, many years. And----
    Mr. RICE. Is the trend favorable today or not?
    Ms. LARIN. We have not----
    Mr. RICE. Is it going to get worse or get better?
    Ms. LARIN. Well, we haven't seen much of an improvement.
    Mr. RICE. Okay. Ms. McLaren.
    Ms. MCLAREN. Initial disability applications are down, so 
are the appeals at the reconsideration level. So from a DDS 
perspective, we would see decreasing numbers in the front----
    Mr. RICE. So you think the trend is good and we are going 
to start to see decreasing numbers?
    Ms. MCLAREN. Some of those issues I couldn't speak to, 
those are SSA's issues.
    Mr. RICE. Thank you. Ms. Zahm--Judge Zahm.
    Judge ZAHM. The trend is down because applications are 
down.
    Mr. RICE. So you see it getting better, Ms. Ekman?
    Ms. EKMAN. Thank you, Congressman. We have not seen an 
improvement yet. I think--and the----
    Mr. RICE. What would be your opinion? Do you see one on the 
horizon or not?
    Ms. EKMAN. We see promising initiatives. It is going to 
take some time for them to----
    Mr. RICE. Thank you. I want to know about the trend in 
claims. I know we had a huge upswing in claims as people talk 
about the baby boomers aging and the recession, which force 
people to look for alternative sources of income. You say that 
the claims are down 600,000 in the last year. Is that right?
    Ms. DISMAN. What we were talking about--I can give you a 
figure of what they are down. The actuary shows they are down 
by about 100,000 from the prior year and 100,000 before that.
    Mr. RICE. What are the total numbers of claims per year? 
Someone said 4 million. Is that right?
    Ms. DISMAN. Well, the total number of claims per year that 
we are dealing with, I need to get back to you on that figure.
    Mr. RICE. Roughly. Judge Zahm, do you know the total number 
of claims per year?
    Judge ZAHM. No.
    Mr. RICE. Okay. Do you know, Ms. McLaren?
    Ms. MCLAREN. Yes, it is 4.7 million, but that includes all 
initial recon and CDR claims----
    Mr. RICE. So we have a 100,000 drop out of 4 million?
    Ms. MCLAREN. Right.
    Mr. RICE. All right. What percentage of claims--you know, 
the whole reason we have to have hearings is to make sure 
people are eligible. Right? If we knew--if they came into the 
office and said, I am disabled, and we could just believe that 
they met all the qualifications, we wouldn't have to have the 
hearings, right? What percentage of hearing applicants, Judge 
Zahm, are approved versus rejected? Do you know that?
    Judge ZAHM. At the hearings level it is approximately 45 
percent of applicants are approved.
    Mr. RICE. And ultimately, on appeals and on through, do you 
know the answer to that?
    Judge ZAHM. No, probably not a whole heck of a lot 
different.
    Mr. RICE. Ms. Ekman.
    Ms. EKMAN. Overall, after all levels of appeal, it is about 
4 in 10 that get approved. Initial claims, there is about 1 in 
3 that are approved. So 2 out of 3 are denied at the initial 
level.
    Mr. RICE. Wait a minute. She said 45 percent and you are 
saying 1 in 3.
    Ms. EKMAN. Well, at the initial level. And it is 45 percent 
at the hearings level. And so once you go through all the 
levels of appeal, you have to remember, too, a lot of people 
drop out, so the number of initial claims, only a percentage of 
those go forward to request hearings.
    Mr. RICE. The CAL program--I will go to you, Ms. Disman. I 
know it is expedited, so how much quicker is it than the 
regular program? How many more--what is the difference in wait 
times?
    Ms. DISMAN. It is substantial. If you take a look at the 
CAL conditions.
    Mr. RICE. Is it 200 days?
    Ms. DISMAN. The average is about 39 days for a CAL 
condition.
    Mr. RICE. Wow.
    Ms. DISMAN. As opposed to the average processing time for 
initial applications which is somewhere between 110 to 114 
days.
    Mr. RICE. Wow. What percentage of people get approved in 
the CAL program?
    Ms. DISMAN. Around 3 percent.
    Mr. RICE. Three? So 97 percent are in the other?
    Ms. DISMAN. Right. That is correct.
    Mr. RICE. Okay. And then, finally, is there any mechanism 
even quicker than CAL? I mean, when you--when they meet with 
somebody, and there is no question they are clearly disabled, 
is there anybody that just gets an instantaneous approval?
    Ms. DISMAN. Well, there is not instantaneous, but there are 
two other processes. One is TERI cases, where an individual has 
a disability which is likely to end in death and very seriously 
indicated as a TERI. The other is quick disability decisions. 
These were all implemented in the beginning of the rise of 
disability pendings over the years. So if it is not a CAL, it 
can be picked up as a quick decision case, it can be picked up 
as a TERI. They all work with each other.
    Mr. RICE. Thank you, ma'am.
    Chairman JOHNSON. Thank you for your questions.
    Mr. Pascrell, you are recognized.
    Mr. PASCRELL. Mr. Chairman, thank you. And I am interested 
in all the questions from all of our comrades here. Excellent. 
Maybe we should do this with Social Security, same approach, 
questions and answers.
    I have a question for you, Ms. Disman, and thank you for 
all your service. I mean that sincerely.
    We know that many initial SSDI applications are denied. Ms. 
Disman, let me ask you this, can you explain to me why that is? 
And is there anything we can do to try to reduce the 
inappropriate denials?
    Ms. DISMAN. Well, thank you, first of all. And I just want 
to reminisce about you and I appearing together in New Jersey 
on radio when I was regional----
    Mr. PASCRELL. We have the worst record in New Jersey. Did 
you know that?
    Ms. DISMAN. I won't even talk about that. Those were my 
years as Regional Commissioner.
    Mr. PASCRELL. I don't mean any inference to you. But I am 
saying New Jersey is way behind everybody else, it looks like, 
even though no State really stands out as getting a gold star. 
But go ahead, I am interrupting you.
    Ms. DISMAN. But in any event, if you look at the initial 
disability application--I used to head the quality function of 
Social Security where we actually looked at these initial 
disability applications. They are, if you look at their 
accuracy, their net accuracy is at 97 percent. Their decisional 
accuracy is at about 95 percent. What happens between the time 
of the initial denial? Time passes. The condition worsens. 
There is also new medical evidence that is introduced that 
wasn't introduced at the beginning.
    So where the DDSs on average have about a 35 percent 
allowance rate, you will see as it goes through its various 
stages, for example at the reconsideration stage when new 
evidence is submitted and the condition may change a little, 
another 12 percent get approved. And then you had, as Judge 
Zahm mentioned, you know, at the hearing level about 45 
percent.
    So it doesn't mean that the DDS's initial decision was 
incorrect, because they do look at 50 percent of the 
allowances, and there is a sample of denials as well, to see 
what is the quality of the decision.
    Mr. PASCRELL. Now, let's compare that to other agencies in 
other departments when we see problems of responding to our 
taxpayers and constituents and our family. I have seen the 
tendency in some of those other departments and agencies that 
remain nameless right now, if they are cutting my budget so I 
cannot spend X amount of dollars on page 38 of the budget you 
refer to--I didn't refer to it, you referred to it--there is a 
$64 billion cut in Social Security disability funds over the 
next 10 years.
    Now, if I am the bureaucrat and the administrator, call us 
whatever you wish, making decisions about, well, if I have less 
benefit money to provide, I need to find a way to get rid of a 
lot of these applicants, because there may be less applicants 
this year, but there is a steady pace of increasing if you look 
back at it over the next--the last 15 years. And by the way, if 
we continue with the last 6 months, we will have the same 
amount as last year. I will tell you the numbers, and you know 
the numbers better than I do.
    So I am saying, is there anything like that happening 
within the disability network of denying early on, let them 
appeal down the road?
    Ms. DISMAN. I would say absolutely----
    Mr. PASCRELL. Is that familiar to you, Ms. Disman?
    Ms. DISMAN. I would say absolutely not. I will tell you 
that our employees--and I do want to talk about what is in the 
budget, but absolutely not.
    Mr. PASCRELL. Yeah.
    Ms. DISMAN. Our employees believe in the mission. That is 
to get the right decision to the right person on time. I was 
trained that way when I came in over 50 years ago.
    Mr. PASCRELL. So we have less money over the next 10 years, 
according to the President's budget, which you talked about. We 
will find a way, if those people are eligible, to get them the 
assistance that they need?
    Ms. DISMAN. Absolutely.
    Mr. PASCRELL. Okay. Let me continue, please.
    So there are no easy fixes. We know that. Making a proper 
SSDI eligibility determination is extremely complex. I feel 
like I am starting to sound like a broken record, though, 
lately, because I keep coming back to the same point that 
virtually all of the Social Security Subcommittee hearings we 
have had since I joined the Subcommittee, but many of the 
problems that this Subcommittee has been examining with the 
Social Security Administration are firmly rooted, I will 
contend, in the lack of resources the agency has been given.
    Look, we don't want anybody to get Social Security 
disability that doesn't deserve it. You have changed the rules. 
And some of them I think are excellent so that we don't have to 
face that issue later on. So we are going to find a way to find 
the rules to have less people who are eligible because you have 
less funds to provide. I mean, the numbers are the numbers. I 
didn't make them up. And I don't think you made them up, Ms. 
Disman. I know your background.
    So you can defend it all you want, but we are trying to get 
to some kind of agreement here so that we can move forward. And 
not everything is in, you know, stark white and black. We know 
that. And there is no easy answers. None. This is complex 
stuff. But I am looking at the history. I am looking at what is 
going to happen by the end of this year. And I don't see any 
improvement whatsoever, to go back to the gentleman's question 
before.
    So, you know, no wonder why some of us are a little 
puzzled. I mean, I am always a little puzzled, but this is 
something that we need to take a much more serious look at, and 
I thank the Chairman for putting us together today.
    Chairman JOHNSON. Thank you, sir. The gentleman's time has 
expired.
    Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. And I also want to 
thank Ranking Member Larson for both of you putting this 
together, and I want to thank the witnesses. And this won't be 
a pile-on, although it does seem like it is.
    And I am going to go back to what my friend Mr. Larson 
said, because it is always easy to talk about money. And he 
said over here we are going to talk about money, and you are 
right because I was in business. And in my 30 years in 
business, when we were having troubles, people would walk up 
and say, well, we just need more money. And it is always easy 
to say, yup, we just need more money, and just give me more 
money, and if you keep giving me more money--the problem is 
here we don't have any more money.
    In Washington, every day we are borrowing from China. We 
have enough issues already, and we just don't have the money, 
so we have to be more efficient. And that is what we used to do 
in the business world. That is what families are asked to do. 
We have to become more efficient.
    So I want to talk about efficiency more than money. And we 
have to figure out how do we become more efficient, because 
there is just no more money. We can talk about it all day, but 
the American people are tired of talking about money when we 
have a $20 trillion deficit, and it continues to grow.
    So I want to talk about one example, because the trend 
line--I do like my friend's example of the trend. The trend is 
not good. I put the black line as the trend line. We can go up 
and down and up and down, but the trend is continually going 
up, so that is an issue.
    What is troubling is that a constituent of mine--and I will 
just use one example. We have a constituent, John, from Parma, 
Ohio, who applied for disability in February of 2015, and who 
my office is still working on to get him a final decision. For 
John, this has really been a frustrating process for him and 
his family. This is simply unacceptable. Unfortunately, I have 
many other constituents who are facing the same circumstances. 
That is February of 2015.
    So what we did was we went out and we started to talk to 
some of the judges in our area to try to figure out what was 
going on. And our Social Security--when we talked to our 
judges, and my staff talked to them in northeast Ohio, they 
have told us that the rules--and I want to go back. Social 
Security recently finalized regulations that generally require 
all evidence to be submitted to the ALJ no later than 5 days 
before a hearing. The judges are stating, they told us that the 
rule fails to fully address the issue of ensuring that they as 
judges have all the information they need prior to the hearing.
    So that is important in a timeline. That is important in a 
decision. And I think it is important that we look at at least 
that. So, basically, the rule is not working.
    But I want to ask Judge Zahm, what are your thoughts on 
that? The judges are saying they need the information.
    Judge ZAHM. Yes. The judges who spoke with you and your 
staff are 100 percent correct. This is the situation. Judges 
are most efficient when we have evidence submitted to us before 
the hearing so that the judge and the medical experts can 
review that evidence and be prepared for the questioning of the 
claimant at the hearing and for the questioning of the experts. 
Then when the testimony is over, we can make a decision right 
away right there. It is fast. It is efficient.
    But what has happened is that the agency had a 10-year 
pilot program in New England that required evidence to be 
submitted 5 days in advance. By all accounts it worked well, so 
the agency decided to extend it nationwide. So far so good.
    Then the rule was drafted, and the rule didn't require just 
the submission of evidence, it also said, and if you don't have 
the evidence you can just tell us what evidence is missing and 
your attempts to get it. So now, 5 days before the hearing I 
still don't have the evidence. What is worse is they have told 
me what evidence I don't have and it is too late to get it. So 
the intent of the rule was undermined by poorly being drafted.
    We need a rule that says 5 days before the hearing get your 
evidence in. People get 75 days' notice before the hearing, so 
they have plenty of time. And if they can't get it, because 
sometimes providers are recalcitrant, let me know. I will 
subpoena it. I need the evidence the day of the hearing so I 
can be efficient.
    Mr. RENACCI. I appreciate that. And again, that doesn't 
take more money, that just takes more efficiency.
    Judge ZAHM. Exactly.
    Mr. RENACCI. Ms. Disman, do you want to----
    Ms. DISMAN. Yes. And certainly, we--the national uniformity 
rule was intended to do as you articulated. It was taking 73 
days on average for the scheduling of a hearing, so this was 
giving 75 days for the reps to present the evidence. 
Unfortunately, we have had a few reps informing us before 5 
days. These sources are medical.
    So what we are in the midst of doing now is using a 
clarifying ruling to deal with those situations. We will also 
have our new Office of Quality and Review and Oversight do a 
study of these cases. The rule went into effect the beginning 
of May. We wanted to do some data analysis to see where it is. 
At the same time, the ruling that we will have will lay out 
factors of what does it mean when you are coming in front of 
us, what do you need to provide?
    The one thing we don't want to do is prevent due process on 
behalf of our claimants. We want to make sure they are afforded 
the best while we are more efficient in what we do.
    Mr. RENACCI. Well, I thank you. And I know I have run out 
of time, but again, this isn't more money, this is just a 
procedure and time and getting things done and getting things 
to the judges.
    I yield back.
    Chairman JOHNSON. Mr. Kelly, you are recognized.
    Mr. KELLY. Thank you, Chairman. Thank you all for being 
here.
    As we listen to this, and again, it does come down, as Mr. 
Renacci was talking about, to the amount of money we have to 
work with and then the size of the Social Security 
Administration. So when we talk about not having enough people, 
and hearing you talk, Judge, what I don't understand is how did 
we figure out that we needed to hire more judges but didn't 
figure out that they needed to have support staff? How do those 
decisions come about?
    Now, as a person who has always been in the private sector, 
it is hard for me to understand that money is the answer to 
this. As Mr. Renacci just said, it is efficiency that really 
drives us most of the time because we just don't have, in the 
private sector, large sums of money to work with. So I was 
really--I was puzzled. So we said, yeah, we need more judges, 
but nobody thinks that they need more support staff. That is 
almost incomprehensible, but that is the issue that you talked 
about.
    Judge ZAHM. Yes. And to the extent that you give me no 
support staff, I cannot be efficient.
    Mr. KELLY. Okay. And so I have to tell you what we face as 
Members of Congress in our offices. We have people coming to us 
with this problem. It is a very difficult system to navigate. 
Let me just read something to you, because we are talking about 
efficiency and effectiveness, and we are talking about making 
sure that we don't have unapplied time, because that is what 
drives everybody's model off the charts.
    In looking over disability insurance statistics for my 
congressional district in western Pennsylvania, I noticed that 
the average processing time is much higher than the national 
average. In our Pittsburgh office, my understanding is the 
average processing time is 698 days. The national average is 
599 days. Both are lengthy, but it takes almost 2 years for a 
claim to be processed with almost 8,200 cases pending in 
Pittsburgh alone. This is an incredible mountain we have to 
climb. That is thousands of western Pennsylvanians with their 
lives on hold for almost 2 years while their claim is being 
processed. Now, a constituent brought this up to me.
    Meanwhile, I just read a report by the Social Security 
Commissioner's Office that last year, 2016, the agency spent 
over $16 million on union representational activities. In fact, 
16 employees spent 100 percent of their time solely on union 
activities. In addition to these 16 employees, almost another 
1,500 used official time on a part-time basis for a total of 
255,000 official hours spent on union activities.
    I have an extremely hard time explaining to my constituents 

that call our office seeking help with their disability claims 
that taxpayer dollars are being spent to the tune of $16 
million on 
union activities while they are waiting for a decision from a 
Federal agency.
    Of course, this is not just an issue at the Social Security 
Administration. In 2014, government employees spent nearly 3\1/
2\ million hours conducting union business, costing taxpayers, 
hardworking American taxpayers, $162.5 million. That is not my 
number, that is OPM.
    So when we are saying we don't have enough people and they 
don't have enough time, how do we find 255,000 hours to spend 
on union activity when we have people waiting to hear their 
claim being processed? Now, I know people say, well, you don't 
want to go down that road. I do want to go down that road 
because do you know who picks up the tab on this? Hardworking 
American taxpayers. They are asking us, how can you look the 
other way when this is going on, when we have people waiting 
over 2 years for a claim to be processed? This is not your 
problem. This is the problem with government.
    Now, Ms. Disman, what is the average time it takes a 
Federal employee to process a disability claim nationally, just 
a ballpark average?
    Ms. DISMAN. Well, I was going to give you an example of a 
decision writer.
    Mr. KELLY. Just give me a ballpark, how much time does it 
take?
    Ms. DISMAN. So one decision writer can write in a year 220 
decisions.
    Mr. KELLY. They can write 220 decisions. Okay.
    Ms. DISMAN. So if you multiply that by the work years that 
you are talking about, you will have a sense of what can be 
done in writing decisions.
    Mr. KELLY. Okay. Let me ask you then, if these 16 employees 
that spend 100 percent of their time dedicated to union 
activities could instead have been working on processing 
disability claims, do you think that would have helped reduce 
the backlog?
    Ms. DISMAN. That would have contributed to more decisions 
being written.
    Mr. KELLY. Okay. And if the 255,000 official hours spent on 
union activities funded by American taxpayers, by the way, were 
spent on processing disability claims, do you think this would 
further help reduce the backlog?
    Ms. DISMAN. Well, I think you have to look at the whole 
program.
    Mr. KELLY. No, I just want an answer. Would it reduce the 
backlog? I don't want to hear about things in totality, because 
that is how we always get lost in this government. We get so 
lost in the fact that we forget that every single penny came 
out of the pocket of a hardworking American taxpayer.
    I know how Social Security works because I am from the 
private sector, and I know it is all based on wage taxes. But 
when I look at this and I keep hearing all we need is more 
money, all we need is more people, and then I say to these 
people, ``Well, what is everybody doing now?'' I don't know, 
Judge, how you could look at more judges coming onboard but 
nobody being hired to the support staff. Maybe asking some of 
those other folks that spent 255,000 hours, do you want to 
really help out with claims and backlogs? Maybe that would be 
the answer.
    Now, I get spun up about this because we keep chasing a 
rabbit we can't catch. And we keep talking about we need more 
money, we need more people, and I keep seeing the backlog keeps 
rising. And all we say to those people back home is just stay 
tuned, we are going to get to you eventually.
    So I know my time is up. Mr. Chairman, I thank you. I yield 
back.
    Chairman JOHNSON. Thank you. Thank you for your 
questioning.
    And, Ms. Sanchez, you are recognized.
    Ms. SANCHEZ. Thank you, Mr. Chairman.
    You know, time and time we hold hearings criticizing the 
Social Security Administration for backlogs, technology issues, 
or fraud, and as Members of Congress we never end up doing 
anything about it. And there tends to be one common thing among 
all the concerns that we keep raising, and I think the line of 
question- 
ing that just went down is sort of a red herring, but it all 
boils 
down basically to lack of funding. And I know people don't want 
to spend funding, but the Social Security Administration has 
been flat funded since 2011. Okay? In 6 years, you cannot buy 
the same amount of paper that you could 6 years earlier with 
the same amount of money. There is this thing called inflation 
that contributes to the cost of doing business.
    In addition, we have an aging baby boomer population and an 
increased demand on limited resources. And I am just going to 
take a guess, and you all can correct me if I am wrong, but I 
am guessing that probably disability claims have been on the 
rise over the course of the 30-year history. I doubt that the 
number of claims has stayed flat.
    So we can't expect Social Security, or any other Federal 
Government agency for that matter, to do more with less and 
less. As the increase in demand goes up, you need an increase 
in resources to deal with the issue. And there is no substitute 
for resources. No amount of congressional hearings and waving 
our arms and screaming into a microphone is going to make up 
for the fact that you guys are not receiving the funding that 
you should receive, that it is not keeping pace with the 
demand.
    So here we are again one more time talking about the 
disability backlog, reprimanding Social Security, but not 
considering actual ways to fix it. And there is no doubt the 
backlog is unacceptable. Six hundred days is too long for 
people in need to wait for a decision. And as Ms. McLaren 
testified, the longer people wait, the greater the hardships 
that they face.
    So it is imperative that Social Security has the number of 
ALJs it needs, the attorneys and support staff to process those 
reviews in a timely manner. Social Security is meant to be 
there when beneficiaries need it the most.
    Now, I happen to have worked for a Federal district court 
judge, and I know what a lack of resources can mean for getting 
through case work. You know, we all want the Social Security 
Administration magically to be able to process these claims in 
a very quick turnaround, but heaven forbid, we don't want you 
guys to make a mistake. We want the decisions to be correct 
ones. Well, correct decisions mean that you need all of the 
information, and it takes time to get that information 
sometimes from the recipients themselves, from the petitioners 
themselves.
    You know, we all want everything to work perfectly, and we 
live in an imperfect world. And certainly, if we don't allocate 
the resources needed, we are not going to see any trend 
reversal.
    So I want to go to Ms. Zahm, because you were kind of 
interrupted by Mr. Larson. You were trying to do a back of the 
envelope calculation about how many cases could be taken out of 
that backlog if you had just one ALJ hired, one law clerk, and 
an attorney to help them. Can you give me a back of the 
envelope calculation?
    Judge ZAHM. Yes. But let me just correct: one clerical 
employee, two attorneys.
    Ms. SANCHEZ. My apologies.
    Judge ZAHM. Because then if somebody implements it, and I 
don't get the other attorney----
    Ms. SANCHEZ. Roughly how many cases?
    Judge ZAHM. I think between 150- and 200,000 extra 
decisions a year. Now, we already put out 700,000 decisions a 
year. That will make a dent in the backlog.
    Ms. SANCHEZ. Yeah. Nobody talks about what you are getting 
right, you know?
    Judge ZAHM. Yes.
    Ms. SANCHEZ. Everybody wants to focus on everything that is 
falling apart. Well, I happen to be a believer in government. I 
believe that government can do things competently, if they are 
given the right people for the right job and the right 
resources.
    Ms. Disman, how big of an impact has level funding had on 
Social Security Administration's ability to process claims?
    Ms. DISMAN. Well, I think if you look at what we have 
achieved, Social Security has managed to identify priorities 
and to establish the processing of claims for our constituents, 
and also has used technology to enhance services and to provide 
different ways of providing the same service.
    Ms. SANCHEZ. But the question was how has level funding 
impacted the ability to write more decisions in a year? Has it 
positively impacted that or has it negatively impacted that?
    Ms. DISMAN. Well, I think we can certainly say that with 
more funds we can do more.
    Ms. SANCHEZ. Excellent. And how much funding would SSA need 
to bring the wait time down to the goal of 270 days, do you 
have an idea?
    Ms. DISMAN. Well, I would actually like to come back with 
that for the record, because it makes a number of assumptions. 
I think you heard from our DDS community about the 
reintroduction of the reconsideration process. If we introduce 
that process, it means less cases will go to the administrative 
law judge. So let me send that back to you with a number of 
assumptions behind it.
    Ms. SANCHEZ. I appreciate that. And do you think that with 
demand growing, you can keep level funding SSA and expect that 
somehow we are going to reverse the trend of this backlog?
    Ms. DISMAN. I think that we have enough in the President's 
budget to be able to start the downward trend. It is taking 
longer than----
    Ms. SANCHEZ. But could you get it to the recommended 270 
days if you stay at a flat level funded? And that is not to say 
that there is no cuts, because we have even heard about cuts 
potentially.
    Ms. DISMAN. Well, if the President's budget and the budget 
that we are going to be submitting to Congress for 2019 all 
assume that we will continue to get a specific funding level to 
allow us to reduce the backlog.
    Ms. SANCHEZ. But would you get the----
    Chairman JOHNSON. The time of the lady has expired.
    Ms. SANCHEZ. Excuse me, but my last colleague was granted 
additional time, and I have one last question I would like to 
submit for the record and allow the witnesses to respond to in 
writing, not verbally.
    Chairman JOHNSON. Sure.
    Ms. SANCHEZ. My question is, with level funding, you said 
that you can start the downward trend in the backlog. How many 
years would it take you to catch up the backlog and get it down 
to the recommended 270 days? And I will allow you to submit 
that answer in writing.
    And I thank the Chairman, and I yield back.
    Chairman JOHNSON. Thank you.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    Ms. Disman, could you tell me how many administrative law 
judges there were in 2011?
    Ms. DISMAN. If my memory serves me correct, and I will 
change that for the record if it was wrong, there were about 
1,100.
    Mr. SMITH. Okay. And currently there is how many?
    Ms. DISMAN. Over 1,600.
    Mr. SMITH. So the lowest backlog we had was in 2011 in 
recent history. And it showed that it was like 350, around 
there somewhere, and now we are at 600. In fact, in Missouri, 
we are at 672, which is worse than the national average. Why 
have we almost doubled when we have almost doubled how many 
administrative law judges we have, according to those numbers?
    Ms. DISMAN. Well, I think if you look at the issues, it is 
the composition of staff that we were able to hire over the 
years. It is the length of time it takes to hire staff. It 
takes time to train staff and have them be proficient. And the 
backlog was the increase in receipts that came in at the 
initial disability level and made its way through the ALJ 
level.
    So this didn't happen overnight. If you look at a curve you 
will see each year it being incremental, and then we had 
problems over the years on actually hiring judges.
    Mr. SMITH. I am just really confused. If in 2011 we had 11- 
or 1,200 people, whatever that is, administrative law judges, 
and today we have 1,600, that is a sizeable increase. And I 
mean, does it take 5 years to train people so that they can go 
through the cases, or I just don't--I can't get--I can't 
comprehend that.
    Ms. DISMAN. We had a period of time where we couldn't hire 
administrative judges, so if you look at it, about 245 were 
hired last year with another 130 this year. And we lose about 
100 ALJs a year.
    Mr. SMITH. So you hired about 350 new ones in the last year 
and a half. Okay. That is helpful. That is the kind of stuff 
you need to tell me.
    Mrs. Zahm, in your testimony, you made the comment that 
there has been more than 1,000 new regulations. What were those 
regulations implemented from? Was it legislation or just that 
the Social Security Administration decided to come up with 
something different?
    Judge ZAHM. It was the latter. The agency made changes to 
the Hearings and Appeals Manual that we use to adjudicate 
cases. Approximately 1,000 since 2011. They have complicated 
and made more time consuming our jobs, but also in that same 
period of time, since 2011, the size of our files have 
increased 55 percent, and that doesn't even count the increase 
from fiscal year 2017. So we have files increasing, numbers of 
applications going up since 2011 and----
    Mr. SMITH. How much? What percent have they gone up since 
2011? Do you have that number?
    Judge ZAHM. That Ms. Disman would know.
    Mr. SMITH. Okay. I will get to her again.
    You said that out of those thousand rules, there is several 
that are not necessary. Could you give me a couple examples of 
not necessary rules that are costing the judiciary time?
    Judge ZAHM. Yes. Okay. For instance, when a claimant tells 
us that they have new medical evidence, they send in documents 
saying Dr. Jones, Dr. Smith, whatever, I have been to the 
hospital, the clerk has to contact the claimant and say you 
need to get these documents. They have to wait 30 days. The 
documents won't come in. If it is an unrepresented claimant, 
they are not coming in. They have to recontact the claimant and 
say why aren't they submitted and then hear a story. They then 
have to go and say to the judge, what do you want us to do? 
And, of course, the judge will always say, I want you to get 
those documents.
    With unrepresented people, why are we doing this? They are 
not going to get the documents. If they get them, they won't be 
complete. The clerk should simply, once they are notified that 
there is another medical provider, send for the documents. That 
would be less time consuming than this dance between us, the 
claimant, the judge, whatever. It takes time, it takes staff 
time, and at the end of the day, we are going to ask for those 
documents anyway, so why don't we just do it to begin with?
    Mr. SMITH. Okay. Good point. You said that last year 
750,000 claims were processed?
    Judge ZAHM. About 700,000 claims, I believe, where 
dispositions were issued at the--that might be 690, whatever. 
About 700,000.
    Mr. SMITH. And I just wanted to clarify Mrs. Sanchez' 
question and Mr. Larson's, I think. You said that by one new 
administrative law judge and the appropriate personnel for 
their office would create a reduction in backlog by what amount 
a year?
    Judge ZAHM. I estimate between 150- and 200,000 extra 
dispositions if you gave us staff.
    Mr. SMITH. For each one administrative law judge or----
    Judge ZAHM. No. Overall based upon--we already put out 
about 700,000. I think we could do an extra 150- to 200,000 if 
I had a clerk and two attorneys.
    Mr. SMITH. With how many lawyers hired, though?
    Judge ZAHM. I don't know exactly how many the agency has.
    Mr. SMITH. Okay. All right.
    Judge ZAHM. I don't know how many more.
    Ms. SANCHEZ. If the gentleman would yield.
    It sounds like you are saying not with additional judges 
but just getting the staffing for the current judges that 
exist.
    Judge ZAHM. Right. Exactly.
    Mr. SMITH. Oh, under the current administrative law judges 
to make sure that they are fully staffed?
    Judge ZAHM. Exactly.
    Mr. SMITH. Okay. Thank you.
    Chairman JOHNSON. The time of the gentleman has expired.
    I ask for unanimous consent to insert in the report Mr. 
Kelly's reference to the record. Without objection, so ordered.
    [The submission of The Honorable Sam Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. As we have heard today, Social Security 
has a lot of work to do, and people are waiting too long to get 
a hearing, and that is simply unacceptable. The good news is 
that Social Security has a plan, but the bad news is it is 
going to take, according to them, until 2022 to get it done. 
Social Security needs to get their wait times under control and 
the American people deserve no less.
    I want to thank our witnesses for your testimony and thank 
you for your patience out there. Thank you also to our Members 
for being here.
    Mr. LARSON. Could I have just----
    Chairman JOHNSON. Mr. Larson, you are recognized for a 
comment.
    Mr. LARSON. Yes. I just also wanted to thank the panelists 
and the Chairman here. I would like to have Ms. Ekman--because 
you didn't get the opportunity to follow up on a number of the 
things that you heard from the only person here who is carrying 
the perspective of the individuals who are impacted by these 
excessive wait times. I think there is the desire from 
everybody here to get after this issue. And, Mr. Chairman, I 
thank you because we unearthed a lot of things.
    What would you recommend, Ms. Ekman, that we do to take a 
number of the positive and constructive things that we have 
heard and turn it into a plan of action?
    Ms. EKMAN. Thank you, Ranking Member Larson. I think 
everyone sitting at this table would agree that the earlier we 
can get a complete evidentiary record in the application 
process, the better and quicker decisions we can make. We would 
recommend that SSA maybe take a little bit longer at the 
initial decision to more fully develop the record. Many 
claimants are unrepresented, and as Judge Zahm said, 
unrepresented claimants can often not be very helpful because 
they are in dire medical straits often when they are going 
through their initial application in assisting in that process. 
Doing more reviews of denials, which less than 3 percent of 
denials are currently reviewed, to ensure that the decision is 
correct could assist in that.
    I think one thing that does not help is creating arbitrary 
deadlines prior to a hearing for the submission of evidence. We 
all agree we want the evidence in, and if there are a few bad 
actors who are not getting the evidence in, Social Security has 
a lot of tools at their disposal to take care of those 
particular representatives. What we should not be doing is 
passing rules that arbitrarily exclude evidence based on a 
timeline that hits the claimant over the head instead of 
addressing any bad actions by representatives.
    So I think what we need to do is figure out how to get the 
evidence in early in the process and have SSA assist claimants 
to do that so that we can avoid having to go through further 
stages of appeal.
    Mr. LARSON. I want to thank you again. I want to thank all 
the witnesses and the Chairman.
    I would just make one final comment about what we were 
discussing earlier, but we don't believe on either side that 
money in and of itself is the solution, but we cannot overlook 
the fact that we have had a large increase of baby boomers 
coming through this process at this time either. So it is very 
helpful to find out how we can combine both what we like to 
think is technology's assistance but also then, with some of 
the very commonsense recommendations that the judge has made 
and with some of the recommendations of GAO, that perhaps we 
are well on our way to do a combination of both, and finding 
where it is where actual money in the system could best benefit 
and whether it is additional clerks or it is the streamlining 
of information, lesser regulations, or actually getting to some 
of these commonsense recommendations that we could actually 
make progress instead of just having hearings.
    But, again, Mr. Chairman, thank you. This is a tremendous 
hearing.
    Chairman JOHNSON. Thank you all for being here, and thank 
you for your testimony. Thanks also to our Members that are 
here.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]
    [Questions for the Record follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
